ti

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-1768
RON FENN,

Petitioner,
V.

CITY OF TRUTH OR CONSEQUENCES, MICHAEL
APODACA, POLICE CHIEF LEE ALIREZ, AND
DANIEL HICKS,

Respondents.
As required by Supreme Court Rule 33. l(h), I certify
that the Brief in Opposition contains 5,017 words,
excluding the parts of the Brief that are exempted by
Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on August 13, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

Notary Public
[seal]
JOHN D. GALLM3HER
Notary Public, Stated Olio
My Commiaalan Expires
>-ebruary 14, 2023

